  Florida’s One-Stop
 Readiness Under the
Workforce Investment Act




                    Report No: 02-00-211-03-390
                    Date:
                                              TABLE OF CONTENTS



                                                                                                                                 PAGE

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          OBJECTIVES AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


AUDIT RESULTS:

          1.         Opening Centers in Each Local Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          2.         Including All WIA Required One-Stop Partners . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          3.         Establishing Agreements with Agencies Providing
                     WIA Required Partner Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          4.         Developing a Financial System Able to Meet One-Stop
                     Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          5.         Developing a Data Collection System Able to Meet
                     One-Stop Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          6.         Providing Access to Services at the One-Stop Centers . . . . . . . . . . . . . . . . . . . . . 6

RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

APPENDIX:

          Florida’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                          ACRONYMS


EFI     Enterprise Florida Incorporated


ETA     Employment and Training Administration


FDLES   Florida Department of Labor and Employment Security


FRED    Florida Research and Economic Database


JTPA    Job Training Partnership Act


MOU     Memorandum of Understanding


WDB     Workforce Development Board


WIA     Workforce Investment Act




                                -i-
                                 EXECUTIVE SUMMARY


This report presents the results of the audit of Florida’s One-Stop career center system. The audit
objective was to assess the status of Florida’s One-Stop career center system relative to where it
needs to be to meet Workforce Investment Act (WIA) requirements. This report provides the reader
with a snapshot as of December 9, 1999, of where Florida stood in implementing WIA requirements
and actions to be taken by July 1, 2000.

WIA was passed in August 1998 to reform Federal job training programs and create a new,
comprehensive workforce investment system. The cornerstone of the new workforce investment system
is One-Stop service delivery, which unifies numerous training, education and employment
programs into a single, customer-friendly system in each local area. WIA requires that states complete
full implementation by July 1, 2000.


                                             Overall, Florida’s One-Stop career center system, which
            AUDIT RESULTS                    comprises 24 local areas, was close to meeting WIA
                                             requirements. At the time of the audit, Florida’s State
Workforce Development Board (WDB) considered three of the local areas fully WIA compliant. The
State has addressed WIA requirements for full-service One-Stop centers and Memoranda of
Understanding (MOUs) with various partners. Also, Florida’s well developed data collection systems
can be expanded to capture additional information needed for WIA reporting. However, Florida needs
to continue its efforts in the following areas to meet requirements for a One-Stop career center system:

        •       developing and improving methods to equitably allocate costs;

        •       expanding data collection and reporting; and

        •       improving access for the disabled at One-Stop centers.

The Secretary of the Florida Department of Labor and Employment Security (FDLES) responded to
the draft report on March 1, 2000. The Secretary outlined actions taken since fieldwork, and we have
revised our draft report accordingly. The response has been incorporated in the report and included in
its entirety as an Appendix.




                                                 -1-
                                        INTRODUCTION


                                           WIA was passed in August 1998 to reform Federal job
             BACKGROUND                    training programs and create a new, comprehensive
                                           workforce investment system. The cornerstone of the new
workforce investment system is One-Stop service delivery which unifies numerous training, education,
and employment programs into a single customer-friendly system in each community. WIA requires
that states complete full implementation by July 1, 2000. Interim final regulations, effective May 17,
1999, provide further direction on WIA requirements.

In 1992, the Florida Legislature created Enterprise Florida, Incorporated (EFI), a public-private
partnership between the State’s business, government and education sectors, to advance Florida’s
competitiveness, including a high-skill workforce. EFI’s WDB serves as the State’s Workforce
Investment Board, providing policy, planning and oversight for job training and workforce programs.

In 1994, FDLES was awarded a planning and implementation grant to develop a One-Stop system.
The grant as modified provided $18 million in funding through June 30, 2000. As of September 30,
1999, FDLES reported expenditures of $10 million and unliquidated obligations of $8 million.

Florida developed a unified state plan that encompassed Wagner-Peyser and early implementation
of WIA Title I beginning July 1, 1999. The Employment and Training Administration (ETA)
authorized Florida to implement the State plan on July 1, 1999, according to the State’s
transition time frames, but withheld full approval of the State plan, requesting further information
and pending negotiation of performance levels. Florida has until April 1, 2000, to revise the plan to
ensure plan approval by July 1, 2000.


                                           The audit objective was to assess the status of Florida’s
   OBJECTIVES AND SCOPE                    One-Stop career center system relative to where it needs to
                                           be to meet WIA requirements by July 1, 2000. Sub-
objectives were to assess the status of Florida’s One-Stop career center system in:

        1.   opening centers in each local area,
        2.   including all WIA required One-Stop partners,
        3.   establishing agreements with agencies providing WIA required partner services,
        4.   developing a financial system to meet One-Stop needs under WIA,
        5.   developing a data collection system to meet One-Stop needs under WIA, and
        6.   providing access to services at the One-Stop centers.

In performing this audit, we conducted interviews with officials from ETA, FDLES, three local boards
(First Coast, Brevard, and the Training and Employment Council of South Florida), and four One-Stop
centers in the cities of Orange Park, Titusville, Hialeah, and Miami. We reviewed and analyzed minutes

                                                  -2-
from State planning committee meetings, agreements for cost sharing and services to be provided,
services for job seekers and employers, and other planning and implementation documents. We did
not assess One-Stop center performance, customer satisfaction, or customer choices. We also did not
review internal controls relative to the One-Stop career center system.

The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Fieldwork began on November 15, 1999, and ended on
December 9, 1999. We held an exit conference with FDLES officials on March 8, 2000.



                                        AUDIT RESULTS


1. Opening Centers in Each Local Area

WIA, Title I, Subtitle B, Chapter 5, Section 134(c)(2)(A) requires, at a minimum, that each of the
required programs, services, and activities be accessible in at least one physical center in each local
area of the state.

Florida’s 24 local areas independently developed One-Stop systems under the general guidance of the
WDB. Based on discussions with EFI officials and a review of local area plans, each local area
operated at least one full service One-Stop center. In addition, there were satellite offices located
throughout the State, many situated at local education facilities or community service organizations,
where customers could access Florida’s One-Stop system. In total, there were approximately 150
designated One-Stop facilities statewide.


2. Including All WIA Required One-Stop Partners

WIA, Title I, Subtitle B, Chapter 3, Section 121(b)(1)(B) requires as partners those entities that carry
out specific employment, training and education programs and activities. WIA requires that program
partners be represented on the State and local Workforce Investment Boards, and accessible through
the One-Stop centers.

State Workforce Investment Board

In 1996, the Florida Legislature enacted the Workforce Florida Act which designated EFI’s WDB as
the State board pursuant to the Job Training Partnership Act (JTPA). The WDB complies with the
alternative entity criteria for a State Workforce Investment Board under WIA Chapter 3, Section
111(e).

The 1999 Amendments to the Workforce Florida Act requires that the WDB develop a transition plan
to reconstitute the board in conformity with WIA requirements. Florida intends to have the transition

                                                   -3-
plan by June 2000. We reviewed WDB membership as of December 9, 1999, and noted the
following:

        •       WIA requires a business majority on the State board, but the WDB had 33 members
                with only 6 designated as business representatives.

        •       WIA requires two members from each chamber of the State legislature, but two Florida
                House member positions on the WDB were vacant.

        •       WIA requires representation from required One-Stop program partners, but partners,
                such as the Department of Community Affairs were not on the board.

While Florida law allows additional members to be appointed to comply with WIA, it was not clear if
these appointments had voting rights.

Local Workforce Investment Boards

Florida requires that local boards be certified as WIA compliant by July 2000. At the time of the audit,
the WDB had certified 17 of the 24 local boards. The remaining seven were approved pending
appointments to fill board vacancies. We reviewed the criteria used by the WDB to certify local
boards and believe the criteria should result in compliant boards.

One-Stop Centers

WIA required program partners were either collocated at One-Stop centers, or accessible through
electronic linkages and referrals.


3. Establishing Agreements with Agencies Providing WIA Required Partner Services

20 CFR 662.230(c) states that all WIA required partners:

    Enter into a memorandum of understanding (MOU) with the local Board relating to the
    operation of the One-Stop system . . . including a description of services, how the cost of the
    identified services and operating costs of the system will be funded, and methods of referral.

To assist local areas in developing agreements with partners, Florida developed a sample MOU which
addresses cost, resource sharing, and services. The WDB approved MOUs in 12 of the 24 local
areas, and returned MOUs for the other 12 local areas with comments. We reviewed two of the
approved MOUs and determined that the MOUs met WIA requirements.

In its response, FDLES stated:




                                                  -4-
    Comprehensive MOUs have been submitted by each of the 24 regional workforce
    development boards and all have now been approved.


4. Developing a Financial System Able to Meet One-Stop Needs Under WIA

WIA, Subtitle E, Section 184(a)(1) requires that each state establish fiscal controls and fund accounting
procedures. 20 CFR 662.270 provides further direction, stating:

        . . . Each partner must contribute a fair share of the operating costs of the One-Stop
        delivery system proportionate to the use of the system by individuals attributable to the
        partner’s program. . . . Some of these (allocation) methodologies include allocations
        based on direct charges, cost pooling, indirect cost rates and activity-based cost
        allocation plans. . . .

At the State level, the WIA financial system was primarily an oversight function. FDLES’s Office of
Compliance was assigned responsibility for conducting fiscal reviews of local area financial systems.
Florida has an adequate fiscal monitoring program to ensure that local area financial systems properly
account for WIA expenditures.

At the local level, 12 of the 24 local areas had cost allocation methods to ensure that a fair share of
operating costs will be allocated to benefitting programs. The State was working with the remaining 12
local areas to develop equitable methods for allocating costs.

FDLES responded:

        The MOUs submitted by most regional workforce development boards now cover cost
        sharing agreements. Efforts to develop and improve cost sharing agreements will
        continue. This will include the development of methods to equitably allocate information
        technology system costs among partners.


5. Developing a Data Collection System Able to Meet One-Stop Needs Under WIA

WIA Subtitle B, Chapter 3, Section 122(d)(1) and Chapter 6, Section 136(d)(2) require that a One-
Stop data collection system be able to collect and report certain data elements for training providers
and all customers who receive more than self-service and informational services. Florida had well
developed data collection systems which can be expanded to report on WIA performance, as
presented below.

        •       The JTPA participant management system, designed to track participant activity
                statewide for the JTPA program, now provides the basic framework for a WIA
                participant case management and reporting system. EFI officials indicated they were in
                the process of replacing the JTPA system with a WIA management information system.


                                                  -5-
       •       The State Department of Education tracks outcomes of students after they complete
               training. FDLES matches the students with quarterly unemployment insurance wage
               records at 6 months, 1 year, and 3 years after training completion. The WDB uses the
               combined information to set local area performance standards.

       •       The Florida Research and Economic Database (FRED) provides State and local area
               economic and demographic data by bringing together a number of separate data bases.
               FRED was still under development.

       •       Florida was in the process of developing a system to report return on investment
               information linking outcome and cost data, and training provider completion rates. It
               was also developing data interchange standards for sharing local board information.

FDLES responded:

       The existing Job Training Partnership Act (JTPA) system has been modified to
       accommodate WIA reporting instructions. Florida has submitted the first two quarterly
       WIA reports to the social policy research associates using the draft Workforce
       Investment Act Standardize Record (WIASR) instructions provided by the United States
       Department of Labor (USDOL) on September 23, 1999.

       A rewritten WIA reporting system using the JTPA computer and database has been
       developed. This modified system incorporates all of the data elements contained in the
       draft WIASR of September 23, 1999. A statewide meeting to train regional workforce
       development boards was held on February 22, 2000. Further modification of the system
       to include additional elements is pending final decisions by USDOL.


6. Providing Access to Services at the One-Stop Centers

The introduction to the Interim Final Rule (page 18668-9), states that One-Stop delivery systems
should be user friendly and local boards should coordinate with the broader community, including
transportation agencies, to ensure that centers are accessible to all customers.

We toured four One-Stop centers in three local areas and found varying degrees of user friendliness. At
each center, free parking, including designated handicapped spaces, was available. The centers
provided customers with self-service access to the FDLES Job Information
System job listings. Although those job listings did not contain full employer data, further information
was available from center staff.

All of the centers need to improve access for people with disabilities. Centers need to provide
equipment for mobility and visually impaired individuals. For example, the Orange Park center had Job
Information System terminals on shelves four feet above the floor, which were not readily accessible


                                                 -6-
from a wheelchair, and its resource room was a small room in the back of the office. Orange Park
officials indicated that they intend to remodel the resource room based on the Titusville design.

The Titusville center presented a welcoming atmosphere with the resource room being the central focus.
It had a library area, phone banks, printers, fax machines, and computers with Internet access and
“home screens” with occupation and education related site links. The board supplemented Brevard
county’s limited public transportation system with a 15 passenger van owned by the State’s Work and
Gain Economic Self-sufficiency program. This center also had non-traditional services donated by
companies and individuals. These services included: “Joshua’s Closet” which provided business
clothes for job seekers, a local dry cleaner to prepare the clothes for customers, and a local financial
counseling company to provide assistance for customers with financial problems.

The Hialeah and Miami South Central One-Stop centers both had bus service and the bus stop at
Hialeah was a hub for several bus routes. Resource rooms had phone banks, printers, fax machines,
and computers with Internet access and “home screens” with occupation and education related site
links. Resource rooms were located near the rear of both centers and not readily visible when
customers first enter. However, this was done to take advantage of pre-existing layout features, such
as network wiring, located near the rear of each center. The Miami centers used video conferencing
and “backrooms” to provide access to various program partners. This allows clients at centers without
a particular program to have a video conference with the program person to establish eligibility and
complete required forms.

FDLES responded:

        Improving the access and accommodation for all customers within the One-Stop career
        center system is an ongoing initiative. A video entitled “One-Stop: Access for Everyone”
        has been distributed. One-Stop career center system site visits are underway and now
        include a component to review accessibility issues. As sites are remodeled or expanded
        and One-Stop partners move into newly designed office space, access issues will continue
        to be addressed.



                                   RECOMMENDATION

We recommend that the Assistant Secretary for Employment and Training ensures that Florida
continues its efforts to implement WIA requirements. By July 1, 2000, Florida needs to:

        •       develop and improve methods to equitably allocate costs;

        •       expand data collection and reporting; and

        •       improve access for the disabled at One-Stop centers.


                                                 -7-
